Judd E. Stone II
Solicitor General

(512) 936-1700
Judd.Stone@oag.texas.gov

September 13, 2021
Via E-File
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re: James Garfield Broadnax v. Bobby Lumpkin, Director, Texas Department of
Criminal Justice, Correctional Institutions Division, No. 21-267
Dear Mr. Harris:
Under Supreme Court Rule 30.4, Respondent Bobby Lumpkin, Director, Texas
Department of Criminal Justice, Correctional Institutions Division, respectfully
moves for an extension of the time for ﬁling his response to the petition for a writ of
certiorari in this matter.
This is a capital case. The response is currently due on September 23, 2021.
Respondent requests a 30-day extension, creating a new ﬁling date of October 25,
2021.* My ofﬁce conferred with counsel for Petitioner on September 13, and
Petitioner does not oppose the requested extension.
The extension is needed because the undersigned counsel and other counsel
assisting with this matter have numerous brieﬁng obligations, including:

* Thirty days from September 23 is October 23, which is a Saturday. Thus, the operative deadline would be October 25.
Pos t Of fic e B ox 125 48, Aus tin, Te xa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. te xa s a t tor n e yge ne r a l. gov

Scott S. Harris
September 13, 2021
Page 2
• Ramirez v. Collier, et al., No. 21-5592 in the Supreme Court of the United
States (response brief on the merits due October 15; oral argument set for
November 1);
• Wardrip v. Lumpkin, No. 21-5226 in the Supreme Court of the United States
(brief in opposition due September 27);
• In re McGowan, No. 12-21-00086-CV in the Texas Court of Appeals for the
Twelfth Judicial District (reply brief due September 20);
• In re Office of the Attorney General, No. 03-21-00096-CV in the Texas Court of
Appeals for the Third Judicial District (oral argument set for September 22);
• Grassroots Leadership, Inc., et al. v. Masters, et al., No. 19-0092 (opening brief
on the merits filed September 10; response brief on the merits due September
30);
• Texas v. Haaland, et al., Nos. 21-378, 21-376, and 21-380 in the Supreme Court
of the United States (petition for a writ of certiorari ﬁled September 3);
• Texas, et al. v. Rettig, et al., to be docketed in the Supreme Court of the United
States (petition for a writ of certiorari ﬁled September 3);
• Whole Woman’s Health, et al., v. Jackson, et al., No. 21A24 in the Supreme
Court of the United States (response to application ﬁled August 31);
• In re Abbott, No. 21-0720 in the Supreme Court of Texas (reply in support of
emergency motion for temporary relief ﬁled August 25);
• In re Abbott, No. 08-21-00140-CV in the Texas Court of Appeals for the Eighth
Judicial District (reply in support of emergency motion for temporary relief
ﬁled August 25); and
• Biden, et al., v. Texas, et al., No. 21A21 in the Supreme Court of the United
States (response to application ﬁled August 24).
For the foregoing reasons, Respondent respectfully requests an extension of the
deadline for ﬁling a response to the petition for a writ of certiorari, creating a new
deadline of October 25, 2021.

Pos t Of fic e B ox 125 48, Aus tin, Te xa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. te xa s a t tor n e yge ne r a l. gov

Scott S. Harris
September 13, 2021
Page 3
Sincerely,
/s/ Judd E. Stone II
JUDD E. STONE II
Solicitor General
Counsel of Record
Office of the Attorney General
P.O. Box 12548 (MC 059)
Austin, Texas 78711-2548
Tel.: (512) 936-1700
Fax: (512) 474-2697
Judd.Stone@oag.texas.gov
cc:

Steven Craig Herzog (Counsel for Petitioner)

Pos t Of fic e B ox 125 48, Aus tin, Te xa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. te xa s a t tor n e yge ne r a l. gov

